aa
i

2311 Douglas Street CO eg KLE Ss E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

ANDREW DEMMA,
Petitioner.
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the 23rd day of April, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
RICHARD E. MAYHALL AWINDER S. SIDHU*
20 S. Limestone Street KELSEY ROBINSON
Suite 120 9636 Gudelsky Drive
Springfield, OH 45502 Rockville, MD 20850
(301) 633-8313
dss@umbc.edu

Counsel for Petitioner

* Counsel of Record

Subscribed and sworn to before me this 23rd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

rene] Konse 0 tooo Qndeaw tt: Chile

Notary Public Affiant 39767

My Comm. Exp. September 5, 2023

 

 
Noel J. Francisco

Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
202-514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
